IN THE SUPREME COURT OF THE UNITED STATES

TURAANI, KHALID M.
Petitioner
vs.

No:

21-0072

CHRISTOPHER WRAY, DIRECTOR, FEDERAL BUREAU
OF INVESTIGATION, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
August 18, 2021
cc:
CHRISTINA A. JUMP
CONSTITUTIONAL LAW CENTER
FOR MUSLIMS IN AMERICA
100 NORTH CENTRAL EXPRESSWAY
SUITE 1010
RICHARDSON, TX 75080

